HHS/OIG, Audit -"Review of Supplemental Executive Retirement Program Costs Claimed
by AdminaStar Federal, Inc. for Fiscal Years 2000 Through 2003,"(A-07-05-00195)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Supplemental Executive Retirement
Program Costs Claimed by AdminaStar Federal, Inc. for Fiscal Years 2000 Through 2003," (A-07-05-00195)
January 20, 2006
Complete
Text of Report is available in PDF format (248 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine the allowability of Supplemental Executive Retirement Program
(SERP) costs claimed by AdminaStar for Medicare reimbursement for fiscal years (FY) 2000
through 2003. We found that AdminaStar claimed $934,728 of unallowable SERP costs for FYs
2000 through 2003 because it did not claim SERP costs in accordance with the Cost Accounting
Standards (CAS). During FYs 2000 through 2003, the allowable SERP costs were $220,821; however,
AdminaStar claimed SERP costs of $1,155,549 for Medicare reimbursement. We recommended that
AdminaStar revise its Final Administrative Cost Proposals for FYs 2000 through 2003 to reduce
its claimed SERP costs by $934,728. We also recommended that AdminaStar claim future SERP
costs in accordance with the CAS. AdminaStar agreed with our recommendations and stated that
it had already implemented policies and procedures to ensure that future SERP costs are properly
claimed.